Nos. 20-543, 20-544

.31u tbe i§upreme Court of tbe Elniteb itate5
JANET L. YELLEN, SECRETARY OF THE TREASURY,

v.

Petitioner,

CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION,
ET AL., Respondents.
ALASKA NATIVE VILLAGE CORPORATION ASSOCIATION, INC.,
ET AL., Petitioners,

v.
CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION,
ET AL., Respondents.

On Writs of Certiorari to the United States Court of
Appeals for the District of Columbia Circuit
BRIEF OF AMICI CURIAE STATES OF UTAH,
OKLAHOMA, LOUISIANA, MINNESOTA, MONTANA,
AND SOUTH DAKOTA, SUPPORTING RESPONDENTS
MIKE HUNTER
Oklahoma Attorney General
MITHUN MANSINGHANI
Oklahoma Solicitor General
OKLAHOMA OFFICE OF THE
ATTORNEY GENERAL
313 NE Twenty-First St.
Oklahoma City, OK 73105
(405) 521-3921
mithun.mansinghani@oag.ok.gov

SEAN D. REYES
Utah Attorney General
MELISSA HOLYOAK*
Utah Solicitor General
LANCE SORENSON
Assistant Attorney General
UTAH OFFICE OF THE
ATTORNEY GENERAL
350 N. State Street, Suite 230
P.O. Box 142320
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov
* Counsel of Record
Counsel for Ainici Curiae

[ADDITIONAL COUNSEL WITH SIGNATURE BLOCK]
Becker Gallagher • Cincinnati, OH • Washington, D.C. • 800.890.5001

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

INTEREST OF AMICI CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

3

The Court of Appeals correctly held
that ANCs do not meet the definition of
"Tribal governments" eligible to receive
Title V CARES Act funding, which is
consistent with Title V's structure of
funding sovereign entities and their
political subdivisions

3

The Secretary's interpretation of the
CARES Act results in double counting
segments of Alaska's population,
unfairly directing funds to the ANCs at
the expense of federally recognized
tribes

7

III.The State of Alaska may distribute its
Title V CARES Act funding to ANCs to
deliver relief to its citizens

11

CONCLUSION

16

11

TABLE OF AUTHORITIES
Other Authorities
Cal. Valley Miwok Tribe v. United States,
515 F.3d 1262 (D.C. Cir. 2008)
4
Montana v. United States,
450 U.S. 544 (1981)
6, 7
N.L.R.B. v. Chapa De Indian Health Program, Inc.,
316 F.3d 995 (9th Cir. 2003)
5
Santa Clara Pueblo v. Martinez,
436 U.S. 49 (1978)
6
Shawnee Tribe v. Mnuchin,
984 F.3d 94 (D.C. Cir. 2021)
10
Statutes
25 U.S.C. § 1301
6
25 U.S.C. § 5304
4, 5
25 U.S.C. § 5321
5
42 U.S.C. § 801
passim
43 U.S.C. § 1601
2
43 U.S.C. § 1606
6
43 U.S.C. § 1629
7
OKLA. STAT. tit. 74, § 1221
1
Pub. L. No. 116-136, 134 Stat. 281, 286-359,
469-501 (2020)
4
UTAH CODE § 9-9-103
1
Other Authorities
Ahtna Shareholders,
https://www.ahtna.com/shareholders/

9

111

Cherokee Nation, Osiyo!,
https://www.cherokee.org/
15
Cherokee Nation, Respond, Recover, Rebuild,
https://www.respondrecoverrebuild.com/
14
Lindsey Bark, Cherokee Nation Releases Coronavirus
Relief Fund Spending Report, CHEROKEE PHOENIX
(Feb. 10, 2021),
https://www.cherokeephoenix.org/news/cherokeenation-releas es-coronavirus-relief-fund-spendingreport/article_2b88acd1-92 76-5a6c-b2a6525971ddbd8d.html
14
The Alaska Community Foundation, Coronavirus
Nonprofit Relief Fund Grantees,
https://alaskacf.org/wpcontent/uploads/2020/11/Roun ds-1-and-2Hospitals.pdf
13
The Alaska Community Foundation, Coronavirus
Nonprofit Relief Fund, https://alaskacf.org/cnrf/13
U.S. Census Bureau, Annual Estimates of the
Resident Population for the United States,
Regions, States, and the District of Columbia:
April 1, 2010 to July 1, 2020 (Dec. 2020),
https://www2.census.gov/programssurveys/popest/tables/2010-2020/state/totals/nstest2020.xlsx
8
U.S. Census Bureau, The American Indian and
Alaska Native Population: 2010 (Jan. 2012),
https://www2.census.gov/library/publications/cen2
010/briefs/c2010br-10.pdf
16

iv

U.S. Treasury, Coronavirus Relief Fund: Allocations
to Tribal Governments (May 2020),
https ://home. tre a sury. gov/system/files/136/Corona
viru s-Relief- Fund- Trib al-Alloc ationMethodology.pdf
9
Utah Department of Health, COVID Community
Partnership Pilot Project: Integrating Community
Health Workers (CHWs) into COVID-19 Response
Efforts (Nov. 2020),
https ://www. he alth. utah. gov/disp aritie s/data/ohd/
CCPPilotProj ectNov2020.pdf
13
Utah State Legislature Executive Appropriations
Committee, COVID-19 State Funds and CARES
Act CRF (Dec. 2020),
https ://le.utah.gov/interim/2020/pdf/00004741 pdf
("Funding Report")
12

1

INTEREST OF AMICI CURIAE
The States of Utah, Oklahoma, Louisiana, Minnesota, Montana, and South Dakota (Amici States) file
this amicus curiae brief in support of Respondents.
Amici States have a substantial interest in ensuring
that all citizens—including American Indians residing off or on reservations within the territorial confines of their respective states—receive the critical
coronavirus relief funds to which they are entitled under the Coronavirus Aid, Relief, and Economic Security (CARES) Act. Amici States promote programs to
help the tribes within their states find and implement
solutions to their community problems and to promote government-to-government relations between
the states and tribes. See, e.g., UTAH CODE § 9-9-103
and OKLA. STAT. tit. 74, § 1221.
The D.C. Circuit's decision correctly concluded
that Alaska Native Regional Corporations and Alaska
Native Village Corporations (collectively ANCs) are
not recognized Indian tribes to which coronavirus relief funds should be distributed under Title V of the
CARES Act. Petitioner Janet Yellen's (the Secretary)
interpretation of the CARES Act results in an unlawful payment to the ANCs at the expense of federally
recognized tribes across the country. If this Court
were to reverse the D.C. Circuit's decision, federally
recognized tribes in the Amici States (and others)
would be deprived of the full amount of coronavirus
relief funds appropriated to them under the CARES
Act, requiring those tribes and the states in which

2

they are located to stretch their allocated funds further than contemplated by the CARES Act.
SUMMARY OF ARGUMENT
Title V of the CARES Act states that "Tribal governments" are entitled to coronavirus relief funds.
See 42 U.S.C. § 801(a)(1). It defines "Tribal government" as "the recognized governing body of an Indian
Tribe." Id. § 801(g)(5). And it defines "Indian Tribe"
as bearing "the meaning given that term" in the Indian Self-Determination and Education Assistance
Act (ISDA). The D.C. Circuit held that ANCs are not
"recognized" Indian tribes under ISDA, and thus not
entitled to Title V funding. Pet. App. 13a, 25a. The
D.C. Circuit was correct for three reasons.
First, the holding below is consistent with Title
V's structure, which directs funds solely to sovereign
entities and their political subdivisions. Unlike recognized tribes with sovereign responsibilities for the
health and welfare of American Indians, ANCs are
for-profit corporations responsible only to their shareholders. 43 U.S.C. § 1601, et seq. And, as the D.C.
Circuit observed, excluding ANCs from the CARES
Act does not dismantle ISDA's application to ANCs
because ISDA makes funding available to "tribal organizations." Pet. App. 24a.
Second, the Secretary's inclusion of ANCs means
that segments of Alaska's population that have already been counted—for calculating Title V funds for
the State of Alaska and recognized tribes in Alaska—
are being double counted in ANC "populations." Title

3

V funding for ANCs not only contravenes the CARES
Act, but unfairly funds the ANCs at the expense of
recognized tribes across the nation.
Finally, Alaska is correct that it can—and
should—provide services to all its citizens from its allocation of coronavirus relief funds. But it is wrong
that ANCs would be locked out of the coronavirus relief response if they do not receive direct funding from
the Secretary. Alaska Br. 27-30. Like all other states,
Alaska may use non-governmental entities, including
ANCs, to meet the needs of all its citizens.
ARGUMENT
I.

The Court of Appeals correctly held that
ANCs do not meet the definition of
"Tribal governments" eligible to receive
Title V CARES Act funding, which is consistent with Title V's structure of funding
sovereign entities and their political subdivisions.

Congress passed the CARES Act to help cover
"necessary expenditures incurred due to the public
health emergency" of the coronavirus pandemic. 42
U.S.C. § 801(d)(1). Title V of the CARES Act appropriated $150 billion for "payments to States, Tribal
governments, and units of local government." Id.
§ 801(a)(1). Of the $150 billion appropriated, Title V
reserved $8 billion for "payments to Tribal governments." Id. § 801(a)(2)(B).

4
The CARES Act defines "Tribal government" as
"the recognized governing body of an Indian Tribe."
Id. § 801(g)(5). And it defines "Indian Tribe" as bearing "the meaning given that term" in ISDA. Id.
§ 801(g)(1). ISDA, in turn, defines "Indian tribe" as:
any Indian tribe, band, nation, or other organized group or community, including any
Alaska Native village or regional or village
corporation as defined in or established pursuant to the Alaska Native Claims Settlement
Act fl, which is recognized as eligible for the
special programs and services provided by the
United States to Indians because of their status as Indians[.]
25 U.S.C. § 5304(e) (emphasis added). Recognition is
a legal term of art in federal Indian law; it confirms a
"tribe's existence as a distinct political society." See
Cal. Valley Miwok Tribe v. United States, 515 F.3d
1262, 1263 (D.C. Cir. 2008) (emphasis added).
The D.C. Circuit correctly determined here—and
Respondents correctly argue—that "[b]ecause no
ANC has been federally 'recognized' as an Indian
tribe, as the [ISDA's] recognition clause requires, no
ANC satisfies the ISDA definition." Pet. App. 13a.
The D.C. Circuit's holding that ANCs are not eligible for Title V funding is consistent with the CARES
Act's overall text and structure differentiating between governments and corporations. Titles I, II, and
IV of the CARES Act appropriated hundreds of

5

billions of dollars of relief for corporations. Pub. L.
No. 116-136, 134 Stat. 281, 286-359, 469-501 (2020).
But Title V funding is expressly directed solely to governments: "States, Tribal governments, and units of
local government." 42 U.S.C. § 801(a)(1).
When Congress determined how to distribute Title V funding, it chose the term "tribal governments"
and not "tribal organizations." This is an important
distinction between the CARES Act and ISDA: the
CARES Act directs funds, and repeatedly refers, to
"Tribal governments," while ISDA authorizes federal
contracting with "tribal organizations," see 25 U.S.C.
§§ 5304(1) & 5321(a)(1) (emphasis added).
The term "tribal organization" has a much
broader meaning than "tribal government" under
ISDA. The former term includes not only recognized
tribal governments, but also corporations representing tribal communities. See, e.g., N.L.R.B. v. Chapa
De Indian Health Program, Inc., 316 F.3d 995, 9991000 (9th Cir. 2003) (involving tribal organization
that was state-chartered healthcare corporation). Excluding ANCs from the CARES Act would not, as Petitioners argue, deprive ANCs of funding under ISDA.
Fed. Br. 35; Pet. App. 24a. Thus, while Congress
could have incorporated the broader ISDA term
"tribal organization" in the CARES Act (to include
corporations), it instead chose to distribute Title V
funding to "tribal governments."
Congress has defined the powers of tribal selfgovernment in the Indian Civil Rights Act to include

6

"all governmental powers possessed by an Indian
tribe, executive, legislative, and judicial, and all offices, bodies, and tribunals by and through which they
are executed." 25 U.S.C. § 1301(2). While not explicitly incorporated in the CARES Act, this definition is
consistent with how courts have defined tribal selfgovernment for decades. See, e.g., Santa Clara Pueblo
v. Martinez, 436 U.S. 49, 55 (1978) ("Indian tribes are
distinct, independent political communities, retaining
their original natural rights in matters of local selfgovernment . . . [including] regulating their internal
and social relations.") (citations omitted); see also
Montana v. United States, 450 U.S. 544, 564 (1981)
(same).
By directing Title V funds to tribal governments,
Congress deliberately chose to work with sovereign
entities to jointly address a serious public health and
safety crisis that affects all people.
ANCs are not tribal governments in any sense of
the word—they do not exercise executive, legislative,
and judicial power over any citizens or members, and
they are not distinct, independent political communities. Rather, ANCs are private corporations created
"to conduct business for profit." 43 U.S.C. § 1606(d).
"The management of the . . . Corporation[s] [are]
vested in a board of directors" who are stockholders in
the corporation. Id. § 1606(f). ANCs were authorized,
at their creation, to issue 100 shares of stock to each
Native Alaskan who was or later became enrolled in
the geographic region for which the ANC has

7

jurisdiction. Id. § 1606(g). Although shareholders
were initially restricted from transferring their
shares, id. § 1606(h)(1)(B), such restrictions on alienability could be lifted by the corporation after 1991.
Id. § 1629c. Unlike the governments of sovereign
tribes—who have responsibility for the health, safety,
and welfare of all tribal members, see Montana, 450
U.S. at 565-66—the ANCs' only responsibility is to
maximize profit for shareholders.
It is not surprising that Congress chose to deliver
Title V coronavirus relief funding to sovereign entities
responsible for more than just generating a return on
investment.
II.

The Secretary's interpretation of the
CARES Act results in double counting
segments of Alaska's population, unfairly
directing funds to the ANCs at the expense of federally recognized tribes.

The funds distributed to each of the fifty states
under Title V are calculated by each State's population as a percentage of the nation's total population,
with a baseline amount of $1.25 billion. 42 U.S.C.
§ 801(c)(1)-(2)(A). To determine the population of
each state, the Secretary consults census data. Id.
§ 801(c)(8).

8

Both Utah and Alaska received $1.25 billion dollars.' Alaska, with a population of about 731,158,2
received approximately $1,710 per capita, including
members of federally recognized tribes and non-enrolled people of American Indian descent. Utah, with
a population of about 3,249,879,3 received approximately $385 per capita, including members of federally recognized tribes and non-enrolled people of
American Indian descent.
The Secretary is also authorized to issue direct
payments to units of local government. Id. § 801(b)(2).
But these payments are deducted from the amount
paid to the state in which the local unit of government
is located. Id. For example, Utah's total allocation of
$1.25 billion included $315.2 million to eligible local
governments and $934.8 million directly to the state.4
Alaska asserts that ANCs perform services that
its political subdivisions cannot. See Alaska Br. 29
("Cutting off funding to the ANCs, which provide services to tens of thousands of Alaska Natives, will
U.S. Treasury, Payments to States and Eligible Units of Local
Government (May 2020) at 1, 7, https://home.treasury.gov/system/files/136/Payments-to- State s-and-Units-of-Loc al- Government.pdf ("Payments to States") (accessed Mar. 30, 2021).
2 U.S. Census Bureau, Annual Estimates of the Resident Population for the United States, Regions, States, and the District of
Columbia: April 1, 2010 to July 1, 2020 (Dec. 2020),
https://www2.census.gov/programs-surveys/popest/tables/20102020/state/totals/nst-est2020.xlsx (accessed Mar. 30, 2021).
3 Id.
4 Payments to States, supra note 1, at 7.

9
create a chasm that the State simply cannot fill.").
There is no corresponding provision, however, that reduces the amounts paid to the State of Alaska by the
$533 million earmarked for ANCs, even if ANCs perform services benefitting that state's citizens in the
same way that units of local government in other
states do.
Title V directs $8 billion to the "Tribal governments." 42 U.S.C. § 801(a)(2)(B). The Secretary decided to allocate 60 percent of the $8 billion based on
population and to allocate the remainder based on
"employment and expenditures data" of the tribes.5
The Secretary chose to rely on data from the Indian
Housing Block Grant program developed by HUD to
determine tribal population based on each Tribe's
"formula area" which "corresponds broadly with the
area of a Tribal government's jurisdiction."6
The Secretary interprets the Act to direct a portion of the $8 billion allocated for "Tribal governments" to be distributed to ANCs. But the Secretary's
interpretation double counts segments of Alaska's
population (and other states) and then directs those
funds to ANCs at the expense of the recognized tribes.
This is because shareholders of ANCs include both

5 U.S. Treasury, Coronavirus Relief Fund: Allocations to Tribal
Governments (May 2020) at 2, https://home.treasury.gov/system/file s/136/Coronavirus-Relief- Fund- Trib al-Allocation-Methodology.pdf (accessed Mar. 30, 2021).
6

1d.

10

Native and non-Native Alaskans; shareholders need
not reside in Alaska. See, e.g., Ahtna Shareholders,
http s ://www. ahtna. co m/sh areholders/
(explaining
that majority of shareholders are Native Alaskan and
shareholders reside inside and outside of Alaska).
And shareholders may hold stakes in multiple ANCs.
The Secretary's atextual interpretation that
ANCs are tribal governments is unworkable. As an
initial matter, the formula for determining how much
money to appropriate to each tribal government under the CARES Act—based on population, employment and expenditure data—is nonsensical as
applied to a corporation. ANCs are not sovereign entities and do not have jurisdictions with enrolled
members or citizens. It is unclear how the Secretary
calculated ANC "populations." Mnuchin Br. at 7 n.3,
Shawnee Tribe v. Mnuchin, 984 F.3d 94 (D.C. Cir.
2021) (No. 20-5286).
But even if a corporation had a "population" based
on its shareholders, the patchwork nature of ANC
ownership and jurisdictions where ANC shareholders
reside inevitably leads to double counting portions of
the population of Alaska (and other states) and unfairly directing funds based on those counts to ANCs
at the expense of federally recognized tribes.

11

III. The State of Alaska may distribute its Title V CARES Act funding to ANCs to deliver relief to its citizens.
Lacking a textual leg to stand on, Alaska leans
instead on policy, asserting that it "cannot simply step
in and provide services to Alaska Natives . . in the
same way as . . . ANCs," even with the $1.25 billion
funds appropriated to the State as part of the CARES
Act. Alaska Br. 23. According to Alaska, ANCs provide better "on-the-ground health and social services"
for many of its citizens, and Alaska is unable to "pick
up the tab" for those citizens. Id. at 25, 30. In effect,
Alaska argues that ANCs are performing the work
that would otherwise be performed, though not as
well, by various units of local government in Alaska,
such as borough and municipal health departments.
Amici States do not question Alaska's determination
that some non-governmental entities can provide better services for its citizens than its own state apparatus. Indeed, the same is often true in Amici States.
But Alaska presents a false dichotomy. The question is not whether the law permits or forbids Alaska
using ANCs to deliver relief; the question is how it can
use them consistent with the law. Alaska is not restricted from using ANCs in delivering relief. The
CARES Act provides that the state, local, and tribal
governments may use the Coronavirus Relief Funds
for necessary expenditures related to the COVID-19
public health emergencies. 42 U.S.C. § 801(d). The
Act does not limit those governments from using

12

governmental and non-governmental service providers to deliver relief in their respective sovereignties.
The CARES Act gives state and tribal governments
the authority and flexibility to determine the best
means for delivering COVID-19 related services to
meet the needs of their citizens and tribal members.
Utah, for example, not, only distributed CARES
Act funding directly to citizens, businesses, and governmental agencies,7 but also indirectly through
grants and contracts to non-governmental entities
(hospitals, nonprofits, etc.).8 These indirect means
enabled Utah to more efficiently provide everything
from testing, treatment facilities, informational and
technological services, to housing, behavioral health,
and domestic violence prevention and treatment.9
In fact, recognizing that existing non-governmental entities have a unique ability to reach specific
groups using culturally appropriate methods, Utah
works with community-based organizations to serve
racial/ethnic minorities, underserved populations,
and communities in rural areas where access to

7 Utah State Legislature Executive Appropriations Committee,
COVID-19 State Funds and CARES Act CRF (Dec. 2020) at 1-3,
https://le.utah.gov/interim/2020/pdf/00004741.pdf ("Funding
Report") (accessed Mar. 30, 2021).
8 Id.
9 Id.

13

resources may be limited by technological, language,
and geographic barriers."
Just as Utah and other Amici States work with
these community-based organizations, Alaska has
paid at least $37 million to nonprofits, including tribal
organizations." Nothing is stopping Alaska from directing its CARES Act funding to the ANCs to deliver
services to Native Alaskans.
Moreover, because distributing CARES Act funding for tribal governments is a zero-sum enterprise,
giving funding to the ANCs means taking away funds
from the governments of federally recognized tribes.
So whatever the policy merits of spending CARES Act
funds on ANCs, that comes with the policy drawbacks
of depriving funds to tribes across the country that
are doing vital pandemic relief work. For example, in
Oklahoma, the Cherokee Nation has used CARES Act
funding to serve its citizens in Oklahoma by providing
individual assistance, economic relief, PPE, food,
Utah Department of Health, COVID Community Partnership
Pilot Project: Integrating Community Health Workers (CHWs)
into COVID-19 Response Efforts (Nov. 2020) at 2, 27,
https://www.health.utah.gov/disparities/data/ohd/CCPPilotProjectNov2020.pdf (accessed Mar. 30, 2021). The CCP program
was funded through Utah's CARES Act funding. See Funding
Report, supra note 7, at 1 ($2.26 million allocated to At-Risk Community Partnerships Expansion).
11 See The Alaska Community Foundation, Coronavirus Nonprofit Relief Fund, https://alaskacf.org/cnrf/; The Alaska Community Foundation, Coronavirus Nonprofit Relief Fund
Grantees, https://alaskacf.org/wp-content/uploads/2020/11/Roun
ds-1-and-2-Hospitals.pdf (accessed Mar. 30, 2021).
10

14

housing, and healthcare.12 It has also helped make
payroll for the 4,800 employees of Cherokee Nation
Businesses and Cherokee Nation Entertainment—
tribally owned corporations that did not receive
CARES Act funds directly but instead through their
tribal governments.13
Alaska also points to the number of its non-enrolled citizens of native descent as well as the number
of enrolled members of tribes living away from their
tribal villages as (1) making it distinct from the lower
48 and (2) a reason to distribute services through
ANCs instead of through recognized tribes. Alaska
Br. 23-27. There are at least two problems with that
argument.
First, Alaska incorrectly assumes that non-enrolled citizens of native descent as well as enrolled
members of recognized tribes would be deprived of
coronavirus relief services if such services are not provided by the ANCs. Alaska Br. 30. As Alaska
acknowledges, it has a responsibility as a sovereign
state to care for all its citizens. Enrolled members living in urban areas are eligible to receive services from
Alaska if travel to their tribal village is too far or
12

See Cherokee Nation, Respond, Recover, Rebuild,
https://www.respondrecoverrebuild.com/ (accessed Mar. 30,
2021).
13 See Lindsey Bark, Cherokee Nation Releases Coronavirus Relief Fund Spending Report, CHEROKEE PHOENIX (Feb. 10, 2021),
https://www.cherokeephoenix.org/news/cherokee-nation-releas
es-coronavirus-relief-fund-spending-report/article_2b88acd1-92
76-5a6c-b2a6-525971ddbd8d.html (accessed Mar. 30, 2021).

15
difficult. Non-enrolled citizens of native descent are
also eligible to receive services from the state. And,
as previously argued, Alaska can develop partnerships with private enterprises to meet the needs of its
citizens.
Alaska argues it cannot "step into the shoes of the
federal government . . . [and] fulfill the federal government's unique trust responsibilities to Alaska Natives." Alaska Br. 30. But that argument incorrectly
presumes that distribution of CARES funding is part
of the federal government's unique trust responsibility to American Indians. It is not. Unlike the services
contemplated by ISDA contracts, distribution of
CARES funding is to benefit all people within the
United States. Thus, it is not unique to American Indians, and the State of Alaska has an independent
sovereign responsibility to ensure the health and
safety of all its citizens.
Second, Alaska, though unique in some ways, is
not the only state with non-enrolled citizens and enrolled members living away from their tribal reservations or villages. For example, the Cherokee Nation
has 380,000 citizens, but only 141,000 live within that
tribe's historic boundaries in Northeastern Oklahoma.14 To put this in perspective, the 239,000 Cherokees that live outside their homelands is about
double the total Alaska American Indian and Alaska

14 See Cherokee Nation, Osiyo!, https://www.cherokee.org/ (accessed Mar. 30, 2021).

16

Native population. Nationwide, 22 percent of Indians
live within tribal statistical areas.16 In Alaska, over
50 percent live within their tribal statistical area
(78,141 out of 138,312).16 Should American Indians
be unable to access services provided by their tribe or
native village, they have access provided by the states
and their private independent contractors.
Alaska, like every other state, has sovereign responsibility for all its citizens, including enrolled and
non-enrolled Native Alaskans. Alaska has received
CARES Act funds for the benefit of all its citizens, and
Alaska should use those funds for American Indians
like the other states have.
CONCLUSION
Amici States and the recognized tribes within
their borders are striving, through their CARES Act
Title V funding allocation, to serve the needs of all
their citizens and members. And they are doing so
with an allocation of funds based upon their populations. The Secretary's interpretation of the CARES
Act and ISDA is incorrect as a matter of statutory construction, and it deprives the recognized tribes of the
full amount of funds to which they are entitled to
serve their members.

U.S. Census Bureau, The American Indian and Alaska Native
Population: 2010 (Jan. 2012) at 13 tbl. 2, https://www2.census.gov/libr ary/publications/cen2010/briefs/c 2010br - 10.p df (accessed Mar. 30, 2021).
16 Id. at 7 tbl. 2, 13 tbl. 5.
15

17

This Court should affirm the D.C. Circuit and
hold that ANCs are not entitled to funding under Title
V.

18

Respectfully submitted.
SEAN D. REYES
Utah Attorney General
MELISSA HOLYOAK*
Utah Solicitor General
LANCE SORENSON
Assistant Attorney General
UTAH OFFICE OF THE
ATTORNEY GENERAL
350 N. State Street, Suite 230
P.O. Box 142320
Salt Lake City, UT 84114-2320
Telephone: (801) 538-9600
melissaholyoak@agutah.gov
Attorneys for Amicus Curiae
State of Utah
MIKE HUNTER
Oklahoma Attorney General
MITHUN MANSINGHANI
Solicitor General
OKLAHOMA OFFICE OF THE
ATTORNEY GENERAL
313 NE Twenty-First St.
Oklahoma City, OK 73105
(405) 521-3921
mithun.mansinghani@oag.ok.gov
*Counsel of Record
Dated: March 31, 2021

19

Additional Counsel:
Jeff Landry
LOUISIANA ATTORNEY GENERAL
Keith Ellison
MINNESOTA ATTORNEY GENERAL
Austin Knudsen
MONTANA ATTORNEY GENERAL
Jason R. Ravnsborg
SOUTH DAKOTA ATTORNEY GENERAL

